The Honorable Hazel R. O'Leary
Secretary
Department of Energy
Washington, D.C. 20585

Dear Secretary O'Leary:

This Semiannual Report for the second half of Fiscal Year
1996 is submitted to you by the Office of Inspector
General for transmittal to the Congress, pursuant to the
provisions of the Inspector General Act of 1978.

During this reporting period, the Office of Inspector
General continued to advise Headquarters and field
managers of opportunities to improve the efficiency and
effectiveness of the Department's management controls,
with particular emphasis on coverage of issues addressed
in the Department's Strategic Plan. We also have
supported the Department's reinvention and streamlining
initiatives by evaluating the cost effectiveness and
overall efficiency of Department programs and operations,
placing special emphasis on key issue areas which have
historically benefited from Office of Inspector General
attention.

In our office's planning and operations, we continue to
target available audit, inspection, and investigation
resources to our customersm most immediate requirements.
However, the Office of Inspector General faces an
unprecedented challenge to comply with new mandates, such
as the Government Management Reform Act of 1994 which
requires audited consolidated financial statements for the
Department of Energy. This and other unfunded mandates
make it increasingly difficult to provide the level of
audit coverage of the Department that we consider
adequate. Nevertheless, our overall focus remains on
assisting Department management to implement management
controls necessary to prevent fraud, waste and abuse;
helping to ensure the quality of Department programs and
operations; and keeping you and the Congress fully
informed.

                                  Sincerely,



                                      //s//
                                  John C. Layton
                                  Inspector General
Enclosure


                  MISSION AND VISION STATEMENTS


                          MISSION STATEMENT
     The Office of Inspector General promotes the effective,
                           efficient,
    and economical operation of Department of Energy programs
 through audits, inspections, investigations and other reviews.


                          VISION STATEMENT


       We do quality work that facilitates positive change
                            CONTENTS

Inspector Generalms Letter to the Secretary                   1

Mission and Vision Statements                                 3

Contents                                                      5

Executive Summary                                             7

Some Significant Actions for This Reporting Period           11

CFO Audits Summary                                           13

Section 1:   Performance Measures                            15

     Recommendations Accepted/Implemented            17
     Audit/Inspections Monetary Improvements         25
     Complaints Resolved                             27
     Investigative Monetary Improvements             29
     Nonconcurrence with OIG Reports                 33

Section 2:   Office of Inspector General Overview            35

     Mission                                         37
     Organization and Staffing                       38
     Inspector General Resource Concerns             39
     Management Referral System                      41
     Legislative and Regulatory Overview             42
     Inspector General Reports Availability          43

Section 3:   Reports Issued                                  45

Section 4:   Statistics                                      53


                          EXECUTIVE SUMMARY


                          OVERALL ACTIVITY


     This Office of Inspector General Semiannual Report to the
Congress covers the period from April 1 through September 30,
1996. The report summarizes significant audit, inspection, and
investigative accomplishments for the reporting period which
facilitated Department of Energy management efforts to improve
management controls and ensure efficient and effective operation
of its programs.

     Narratives of our most significant reports are grouped by
measures which the Office of Inspector General uses to gauge its
performance. The common thread that ties the performance
measures together is their emphasis on supporting Department
efforts to produce high quality products in an economical manner.

     During this reporting period, the Office of Inspector
General issued 52 audit and 7 inspection reports. For reports
issued during the period, the Office of Inspector General made
audit recommendations that, when implemented by management, could
result in $554 million being put to better use. Management
committed to taking corrective actions which the Office of
Inspector General estimates will result in a more efficient use
of funds totaling $22.4 million. Office of Inspector General
actions in identifying attainable economies and efficiencies in
Departmental operations have recently provided a positive dollar
impact of about $4 million per audit employee per year. Also,
the Office of Inspections committed major resources reviewing the
Secretary of Energy's foreign travel.

     Office of Inspector General investigations led to 20
criminal convictions, as well as criminal and civil prosecutions
which resulted in fines and recoveries of $29,365,094. The
Office of Inspector General also provided 27 investigative
referrals to management for recommended positive action.


                    OIG RESOURCE LIMITATIONS


     Several new statutory mandates and additional
responsibilities have been placed upon the Office of Inspector
General over the past few years with no additional resources. As
an example, the Department's Office of Contractor Employee
Protection was transferred without funding to the Office of
Inspector General in Fiscal Year 1996. Since then, the Office of
Contractor Employee Protection has been disestablished, but the
work load remains. As a result of newly mandated tasks, the
Office of Inspector General will serve fewer customersm
specialized needs and has already diverted resources from other
reviews that had focused on significant programs and operations
where major vulnerabilities may exist.

     Additionally, during any organizational downsizing such as
the Department is now experiencing, Offices of Inspector General
may often find increased vulnerabilities, opportunities for fraud
and waste, and increased numbers of complaints requiring
resolution. Reducing Office of Inspector General resources in
consonance with those of the Department inhibits the detection
and prevention of fraud, waste and abuse at a time when such acts
may begin occurring with greater frequency. Already, our
resource constraints have required higher thresholds for
investigative case openings and inspection of administrative
allegations, resulting in less coverage and less deterrent
effect. Office of Inspector General investigative efforts have
been redirected toward cases of increased severity, including
cases of serious criminal violations, large civil fraud matters,
and significant administrative misconduct.


                    TRACKING AND REPORTING ON
                THE STATUS OF OIG RECOMMENDATIONS


     The Inspector General Act of 1978 requires that the
Semiannual Report of the Inspector General include an
identification of each significant recommendation described in
previous Semiannual Reports on which corrective action has not
been completed. In the Department of Energy, the Office of
Compliance and Audit Liaison within the Office of Chief Financial
Officer has responsibility for the audit followup system. Thus,
this information is included as part of the companion submission
to this report which is provided by the Secretary of the
Department of Energy.

     Although the followup system is operated by the Department's
Chief Financial Officer, the Office of Inspector General provides
oversight in the form of audits of the followup system or its
components, and semiannual reviews of the progress of corrective
actions on audit and inspection reports. In addition, the Office
of Inspector General conducts periodic followup audits or
verifications in which the objective is to determine if prior
audit and inspection report recommendations were implemented and,
if so, whether they were effective. Also, at the start of each
new audit or inspection, the Office of Inspector General conducts
a review of prior reports on related topics, a review of the
recommendations included in these prior reports, and an
evaluation of the corrective actions that were taken.

     During this reporting period, there were no reports made to
the Secretary noting unreasonable refusal by management to
provide data to the Office of Inspector General.

       SOME SIGNIFICANT ACTIONS FOR THIS REPORTING PERIOD


  The Office of Inspector General completed significant audit,
inspection and investigative reviews of Department of Energy
programs and operations during this reporting period. A sample
of these reviews include:

Special Audit of Pension Plans for Department of Energy Contract
Employees of the University of California (IG-0394): The audit
concluded that the renegotiation process would provide the
Department an opportunity to recover at least $620 million in
excess assets from the pension plans it has funded for University
of California employees at the Departmentms laboratories and to
improve the Departmentms management of those pension plans.
Investigation Resulted in $22 Million in Fines and Penalties Due
to Violations of the Clean Water Act (I94OP002): A joint
investigation determined that a pipeline company violated its
construction permits to build a gas pipeline from Ontario,
Canada, to Long Island Sound, New York, when it did not clean up
various wetlands and streams disturbed during construction,
install required erosion control devices, or install trench
breakers or clay plugs by the edges of all wetlands crossed or on
slopes traversed during construction. In May 1996, the pipeline
company pled guilty in Federal court to four felony violations of
the Clean Water Act and agreed to pay $22 million in fines and
penalties. Several senior company officials also pled guilty as
a result of their involvement.

Audit of the Department of Energy Program Officers' Use of
Management and Operating Contractor Employees (IG-0392): The
audit found that 378 laboratory employees were assigned to the
Washington, D. C., area for periods of six months or longer, at
least 220 of whom provided a wide range of administrative and
technical support services directly to program offices. In
addition, these employees had worked on projects that had the
potential to impact their laboratory employers. The audit also
found that the Department had not clearly defined the proper use
of laboratory employees, nor had it established a system to
periodically review their proper use. Furthermore, the
Department was not fully aware of the magnitude of its reliance
on laboratory employee support or the associated cost
implications. After completion of the audit field work, the
Department estimated that it spent over $30 million per year for
the use of the laboratory employees in support roles at
Headquarters.

Investigation Resulted in a $396,000 Civil Settlement Due to
Irregularities in Lodging, Per Diem, and Travel Claims
(I95RL021): The investigation determined that three accounting
firm employees assigned to an audit of the Bonneville Power
Administration had pooled their funds to rent a studio apartment
in Seattle. Having a Seattle residence allowed the three
employees to appear to qualify for lodging, per diem and travel
expenses while working on the contract with the Bonneville Power
Administration in Portland. The auditors were employed full-time
on the Bonneville Power Administration audit in Portland and
Portland, not Seattle, was the site of their primary residences.
In a civil settlement agreement filed in U.S. District Court, the
accounting firm agreed to pay the Government $396,000.

Investigation Resulted in a Repayment of Over $6600 in
Unauthorized Accepted Toll Call Charges (I95AL008): An
investigation determined that a Sandia National Laboratory
employee had accepted over 700 telephone calls at an office
number from prison inmates located at the Central New Mexico
Correctional Facility at Los Lunas and the Penitentiary of New
Mexico at Santa Fe. The case was presented to a grand jury which
returned an indictment for theft of Government property. The
employee voluntarily left employment at Sandia and signed a
pretrial diversion plea agreement which provided for the
repayment of over $6600 in unauthorized accepted toll call
charges.

Inspection of the Establishment and Filling of the Department's
Ombudsman Position (IG-0393): At the request of the Secretary
of Energy, the Office of Inspector General examined possible
personnel and per diem irregularities in establishing and filling
the position of the Department's Conflict Resolution Ombudsman.
The final inspection report made 10 recommendations to
management, which included ensuring that the review and approval
of initial Intergovernmental Personnel Act (IPA) Assignment
Agreements that contain provisions for payment of per diem (and
extensions of those agreements) include a determination of the
appropriateness of providing per diem or continuing per diem.
Management concurred with all recommendations.

Audit of Department of Energy Management and Operating Contractor
Available Fees (IG-0390): In January 1994, the Office of
Inspector General issued an audit report on the implementation of
the Accountability Rule which concluded that the Department paid
five contractors $23 million in increased fees with no conclusive
evidence that this rule was meeting its objective. Now the
Department is crafting a new fee policy which may, depending on
how it is implemented and executed, increase available fees by as
much as $218 million annually. This increase, which is above the
amount provided through the Accountability Rule, is expected to
be an incentive to improve management and operating contractor
performance. Prudent business practice dictates that any change
which increases costs to the Department should be analyzed to
determine if the benefits justify the cost. This change,
however, was not subjected to a rigorous analysis to determine
its cost and benefits.

               AUDIT OF THE DEPARTMENT OF ENERGY'S
                CONSOLIDATED FINANCIAL STATEMENTS


     The Office of Inspector General's Office of Audit Services
has assumed responsibility for auditing the Department of
Energy's Consolidated Financial Statements as required by the
Government Management Reform Act of 1994. Because of the
magnitude and complexity of this audit, the Office of Inspector
General decided to implement a multi-phase strategy for auditing
the consolidated financial statements of the Department. Phase I
of the strategy was successfully completed on February 29, 1996,
when the Office of Inspector General issued its report on the
Departmentms Consolidated Statement of Financial Position as of
September 30, 1995. That statement reported on the Department of
Energyms assets of over $90 billion and liabilities of about $220
billion. The Office of Inspector General was unable to form an
opinion on the Fiscal Year 1995 Statement of Financial Position
because the Department did not ensure that all unfunded
liabilities (recorded as $200 billion) were properly identified.
Furthermore, the Department did not have adequate controls over
its property and equipment to ensure proper accountability for
these assets, and it could not provide adequate assurance that
the balances attributable to the Departmentms portion of the
Bonneville Power Administrationms assets and liabilities were
accurate.
     As a result of the Phase I work, the Office of Inspector
General issued one national report which included eight
reportable internal control conditions that required corrective
action at the Department level, and thirteen local reports that
identified internal control conditions that warranted corrective
action by local management. The Phase II effort, which began in
March 1996, builds on the foundation created in the Phase I
audit. In addition to the Consolidated Statement of Financial
Position, the Phase II audit includes the Department's Statement
of Operations and Changes in Net Position. The Phase II audit is
focusing on changes to the Departmentms internal control
structure, including corrective actions implemented by management
to address internal control conditions identified by the Office
of Inspector General during the Phase II audit.
     The Phase II audit provides broad coverage of internal
controls at 29 of the Departmentms 61 reporting entities. Based
on recorded financial activity as of September 30, 1995, these 29
reporting entities controlled 94 percent of the Departmentms
Total Assets and also processed significant portions of its
obligations (74 percent), revenues (85 percent), and total
expenses (75 percent). The Phase II audit will include
alternative procedures for reporting entities not specifically
selected for detail testing which will enable the auditor to
reach a conclusion on the Department's Statements taken as a
whole.
     The Office of Inspector General and the Office of the Chief
Financial Officer are working together to meet the March 1, 1997,
date established for providing audited consolidated financial
statements to the Office of Management and Budget. For the
Office of Inspector General and the Office of the Chief Financial
Officer to meet this deadline, all parties throughout the
Department need to actively work toward implementing the
Government Management Reform Act. Such compliance with the Act
will demonstrate the Department's successful stewardship of its
financial assets, as well as progress toward accomplishing the
Department's financial goals.
     The Office of Inspector General is committed to successfully
carrying out its role and responsibilities in complying with the
Government Management Reform Act. However, it should be noted
that the Consolidated Financial Statement Audit places
unprecedented demands on the audit resources of the Department.
During Phase I, the Office of Inspector General and participating
contractor internal audit staffs and independent public
accountants focused on the Departmentms Fiscal Year 1995
Statement of Financial Position. The Phase II expansion to
include the Statement of Operations and Changes in Net Position
necessitates an increase in staff requirements. This increased
work load and associated resource demand, is of special concern
to the Office of Inspector General given the decreasing resources
available to meet statutory requirements for financial and
performance audits.




                            SECTION 1
                      PERFORMANCE MEASURES



     Significant Office of Inspector General work is narrated in
this section under qualitative performance measures which were
used to gauge the effectiveness and efficiency of Office of
Inspector General products in meeting the needs and expectations
of its customers.

                      PERFORMANCE MEASURE:

                  OIG RECOMMENDATIONS ACCEPTED
                  OR IMPLEMENTED BY MANAGEMENT

     Explanation: Management concurs with or implements
     recommendations contained in a published OIG report.
     Partial concurrence may be counted as acceptance if the
     proposed or implemented action by management is
     responsive to the recommendation.

                   Summary Audit Documents
                 "Lessons Learned" from the
           Superconducting Super Collider Project

  The Superconducting Super Collider, originally planned to
be completed in 1999 at a cost of $8.2 billion, was to be
the worldms most powerful particle accelerator. From 1990
to 1993, the project underwent a series of changes to
address several problems. In 1993, the Congress decided to
terminate the project. While both internal and external
factors contributed to the demise of the Superconducting
Super Collider, its cancellation offers the Department a
unique opportunity to analyze what went wrong, correct the
mistakes, and apply the lessons learned to future large-
scale projects.
  A summary audit report concluded that several factors
which hindered the successful development of the
Superconducting Super Collider related to project cost
estimates, the cost and schedule control system, business
management systems, the contract itself, and project
administration. Specifically, the Department could benefit
from improvements to its project cost estimating system by
fully using independent cost estimates, and by ensuring that
a dependable cost and schedule control system is operational
before construction begins. The Department could also
benefit from early establishment of funding agreements and
appropriate contractor business management systems. An
effective contract instrument with commensurate risk
apportioned to the contractor, along with adequate
Departmental staffing and early involvement with project
management, will also be of benefit to the future large-
scale scientific endeavors of the Department.
  Department management generally agreed to apply the
lessons learned from the Superconducting Super Collider to
future projects. (IG-0389)

                 An Audit Recommends Actions
                To Improve Internal Controls
               Over Special Nuclear Materials

  The Department of Energy is responsible for safeguarding a
significant amount of plutonium, uranium-233 and enriched
uranium (collectively referred to as lspecial nuclear
materialsn) stored in the United States. The Department's
management and operating contractors, under the direction of
the Department, safeguard and account for the special
nuclear material stored at Department sites.
  An audit disclosed that management at three Department
sites had not performed all required physical inventories
(and one site did not perform measurements) due to safety
concerns and operational interruptions. The audit did not
disclose that any special nuclear materials were missing.
However, the longer complete physical inventories are
delayed, the greater the risk that unauthorized movement of
special nuclear materials could occur and go undetected.
  The audit report recommended that the Department (1)
conduct the required physical inventories, and (2) implement
program enhancements suggested in a January 1995 internal
Department report. The recommendations will assist the
Department in safeguarding special nuclear material.
  Management concurred with the recommendations and
indicated that it planned to take corrective actions.
Further, the operations and field offices, as well as the
cognizant Headquarters program offices, provided details on
a number of measures that had been implemented and/or were
planned to reduce the potential risks identified in the
audit report. (IG-0388)

Recoupment of Taxpayers' Investment in Clean Coal Technology
                          Projects Is Delayed

  In 1985, the Congress directed the Department of Energy to
implement a Clean Coal Technology Program to demonstrate a
new generation of advanced coal-based technologies. As part
of the program, the Department established a goal to recover
an amount up to the taxpayers' investment in each
successfully commercialized clean coal technology project.
As of December 31, 1995, the clean coal program included 42
projects with repayment agreements predicated on successful
commercialization of demonstrated technologies. The
Department's cost share for these projects was $2.3 billion.
  An audit determined that recoupment decisions made by the
Department limited its ability to recover the taxpayers'
investment in six clean coal technology projects. These
decisions (in-cluded in repayment agreements) exempted
foreign sales, excluded some domestic sales on certain
projects and lowered the repayment rate on some sales. As a
result, the Department may not recoup an estimated $133.7
million of the taxpayers' $151 million investment in six
projects and may limit its opportunity to recover future
investments in other energy technology programs. Office of
Inspector General auditors also found that the Department
had not established financial policies and procedures to
handle repayments due from sponsors.
  To strengthen the recoupment process, the audit report
recommended that the Department formally analyze and justify
any recoupment efforts that limit its ability to recover the
taxpayers' investment in successfully commercialized
technologies, and establish and implement financial policies
and procedures to ensure that sponsor repayments are timely,
accurate, and complete. Department management concurred
with the recommendations. (IG-0391)

           Better Controls Needed Over the Use of
                 Contractor Employee Support

  Department policy requires that management and operating
contractor laboratory employees not be placed in positions
where conflicts may occur between the interests of the
Department and those of the laboratory. An Office of
Inspector General audit reviewed the activities of
laboratory employees who provided support for periods of six
months or longer directly to Department program offices
located in the Washington, DC, area.
  The audit found that 378 laboratory employees were
assigned to the Washington, DC, area for periods of six
months or longer, at least 220 of whom provided a wide range
of administrative and technical support services directly to
program offices. In addition, these employees had worked on
projects that had the potential to impact their laboratory
employers. The audit also found that the Department had not
clearly defined the proper use of laboratory employees, nor
had it established a system to periodically review their
proper use. Further, the Department was not fully aware of
the magnitude of its reliance on laboratory employee support
or the associate cost implications. As a result, laboratory
contract employees were involved in programmatic and policy
arenas in which real or perceived conflicts may exist
between their official duties and tasks they assume when
servicing Department program offices. Also, the Department
may be augmenting its Federal work force in a way that might
not be cost-effective and consistent with its staffing
objectives.
  After completion of the audit field work, the Department
began efforts to identify laboratory employee support in
order to eliminate management and administrative support
services provided by laboratory employees. Given the
current levels of program office dependence on laboratory
employee support, the Department should establish universal
policies regarding the use of this support. The audit
report recommended that the Department define activities
that may be performed by laboratory employees and develop a
system to monitor placement of laboratory employees within
Department program offices. The report also recommended
that the Department evaluate the budgetary impacts of
continuing support by laboratory employees. Department
management generally agreed with the findings. (IG-0392)
   IPA Assignment Agreement Processing Needs Strengthening

  At the request of the Secretary of Energy, the Office of
Inspector General examined possible personnel and per diem
irregularities in establishing and filling the position of
the Department's Conflict Resolution Ombudsman. The
examination included a review of the Departmentms
determination of the incumbent's professional
qualifications, compensation level, and eligibility for per
diem payments.
  An inspection found that the Ombudsman was hired as a
temporary Federal employee under an Intergovernmental
Personnel Act (IPA) Assignment Agreement which was from
October 4, 1993, through September 30, 1994. An individual
on an IPA assignment may either be hired as a temporary
Federal employee or detailed to a Federal agency. At the
time of appointment, the Ombudsman was employed by a local
Board of Education in New Jersey and owned a home in a
nearby town. Under the provisions of the IPA Assignment
Agreement, the Ombudsman received per diem payments of $35
per day while in Washington, D.C. Subsequent IPA Assignment
Agreements, which extended the Ombudsmanms assignment
through September 1997, also contained the provisions
regarding per diem payments.
  The inspection determined that the establishment of an
Ombudsman position in the Department was not unique within
the Federal Government. Also, the Ombudsman's grade level
was consistent with grade levels of like positions in other
Federal entities and applicable personnel guidelines were
followed in the classification action. Further, the
inspection found that the excepted appointment of the
individual selected for the Departmental Ombudsman position
was in accordance with applicable personnel regulations.
  Although payment of per diem to the Ombudsman beyond one
year was contrary to Federal and Departmental guidelines,
the inspection concluded that under the provisions of the
IPA Assignment Agreements, per diem payment was not legally
prohibited. In late 1995, however, questions were raised by
Department officials regarding whether the Ombudsman was
entitled to per diem payments following the sale of the
Ombudsman's New Jersey residence. As the result of a
consensus reached by several Departmental management
offices, a decision was made that the Ombudsman was not
entitled to receive per diem payments under the IPA
Assignment Agreements for the period following the sale of
the New Jersey home. Subsequent to this decision, a demand
letter was issued to the Ombudsman for recoupment of per
diem payments. The Ombudsman immediately repaid the amount
of per diem payments identified in the demand letter.
  The inspection identified some deficiencies in the
processing of the initial IPA Assignment Agreement
extension. Specifically, evidence showed that the
Department's Office of Personnel did not have an IPA
Assignment Agreement signed by all necessary parties at the
time it processed the document that extended the Ombudsman's
excepted appointment from October 1, 1994, through June 30,
1995. The inspection also revealed that the official who is
authorized to determine the existence and amount of employee
debt did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman, nor had the
official delegated the authority to the officials who caused
the recoupment of the per diem payments.
  The final inspection report made 10 recommendations to
management, which included ensuring that the review and
approval of initial IPA Assignment Agreements that contain
provisions for payment of per diem (and extensions of those
agreements) include a determination of the appropriateness
of providing per diem or continuing per diem. Management
concurred with all recommendations. (IG-0393)

          About $14 Million in Liability Insurance
              Costs Could Be Avoided by Greater
            Enforcement of Departmental Policies

  The Department of Energy uses contractors to operate its
facilities and pays the costs incurred by these contractors.
During the last 3 completed years of operation, 54 of its
major contractors reported that they incurred and were
reimbursed about $44.3 million for liability insurance
costs. This included $23 million for comprehensive general
liability insurance and $5.6 million for automobile
liability insurance. Also, some contractors reported having
other types of liability insurance costing $15.7 million.
  The Department's general policy is to assume the risk of
allowable losses or liabilities for its contractors, and it
currently has a liability insurance program in place to
assume this risk. Contractors are required to use self-
insurance if combined annual premiums for commercial
insurance exceed $10,000. An Office of Inspector General
review of 18 major contractors showed, however, that the
Department was not consistently following its policy. As a
result, the contractors which used commercial insurance
incurred higher cost. A separate review showed that
required approvals were not always obtained prior to
purchasing certain types of liability insurance. Based on
the results of the audit, contractor insurance costs could
have been reduced by about $14 million if contracting
officers had required contractors to use self-insurance.
  The audit report recommended that: (1) the Departmentms
policies requiring self-insurance be fully implemented, (2)
requests for approval for commercial insurance when annual
premiums exceeded $10,000 be fully justified, (3) the
commercial insurance policies specifically define the
liability coverage prior to approval and payment, and (4)
the contracts include clauses limiting reimbursements for
insurance expenditures to actual losses and administrative
costs. Department management generally concurred with the
finding and recommendations, and provided a series of
actions that were planned. (IG-0396)

          An Audit Identifies a Need for Improving
             Credit Card and Property Procedures
  Bonneville Power Administration's information resources
include computer-related equipment, spare parts, and
computer software. An audit found positive aspects in
Bonnevillems management of computer-related equipment.
However, improvements could be made in implementing credit
card and property procedures.
  The audit found that improvements were needed to (1) control
credit card purchases, (2) ensure that equipment was tagged
and included in property records, (3) maintain
accountability over spare parts, and (4) identify unused
equipment. As evidence for the need for improvements, about
$90,000 of equipment was bought by personnel whose authority
to purchase was not properly documented, and about $182,000
of purchases lacked supporting invoices. In addition, one
maintenance support group had over $109,000 of spare parts
shortages. Further, Bonneville could have saved about
$803,000 had unused equipment been redistributed within
Bonneville or to other Federal and state agencies.
  Management concurred with the audit reportms
recommendations to improve internal controls. (WR-B-96-06)

     An Audit Questions the Effectiveness of Work Force
    Restructuring at the Fernald Environmental Management
                           Project

  The Department of Energy restructured its work force at
the Fernald Environmental Management Project to reduce
staffing levels and to modify the mix of workersm skills in
response to budget cuts, facility closures, and changes in
the Fernald Projectms mission. The Office of Inspector
General performed an audit to determine whether the
Departmentms work force restructurings were effective.
  To achieve the Departmentms objectives, the Fernald
Environmental Restoration Management Corporation (FERMCO)
developed two restructuring plans. The audit found that the
Fernald Area Officems first work force restructuring plan in
Fiscal Year 1994 did not accomplish the Department's
objective of reducing total employment and changing the mix
of workers' skills. FERMCO spent $2.9 million to separate
255 employees in October 1993, but by September 30, 1994,
all but 14 of the employees separated were either rehired or
replaced by new employees with similar skills.
  The audit could not determine whether the second
restructuring will achieve the Department's objectives
because the restructuring was still ongoing at the time of
the audit. Since the first restructuring began, FERMCO has
hired over 600 new employees. If this pattern continues,
the second restructuring (estimated to cost $12.9 million)
will not significantly reduce overall staffing or
substantially change the mix of workersm skills.
  The audit found that the work force restructuring plan did
not meet the Department's objectives because it did not (1)
require FERMCO to perform the skills analysis necessary to
identify which employees were needed to perform the Fernald
Projectms current mission, and (2) effectively monitor
FERMCOms restructuring efforts to ensure the objectives were
met. As a result, FERMCO spent $2.9 million in Fiscal Year
1994 and planned to spend an additional $12.9 million in
Fiscal Years 1995 and 1996 for work force restructurings
that have provided little or no benefit to the Department.
  The audit report recommended that Department management
require FERMCO to review the skills of employees scheduled
to be separated and encourage employees with needed skills
to retain their jobs. The report also recommended that the
Fernald Area Office monitor FERMCO's effort to ensure that
the Departmentms restructuring objectives are effectively
met and that employees with needed skills are retained and
not separated and replaced. Department management agreed
there were some deficiencies in the restructuring process
and agreed to implement the recommendations. (ER-B-96-01)

               A Revision of the Groundwater
             Remediation Plan is Needed at the
             Departmentms Savannah River Site

  The Department of Energy was required to reduce
groundwater contamination at its Savannah River Site that
represented a risk to human health or the environment. To
achieve this goal, the Departmentms Savannah River
Operations Office entered into several formal agreements
with Federal and State of South Carolina regulators. The
agreements described how Savannah River would reduce the
level of contamination until the risks to human health and
the environment were lowered to an acceptable level.
  The agreements, covering contamination in groundwater
under areas designated as "F" and "H," would allow Savannah
River to pursue groundwater remediation projects that were
necessary to protect human health and the environment.
However, the agreements call for decreasing groundwater
contamination to levels that meet South Carolinams
regulations, thus allowing a hypothetical future resident to
someday live above the F and H Areas and drink the
groundwater. The audit determined that basing the
agreements on drinking water standards was unreasonable
because no one will likely live above the F and H Areas or
drink the groundwater. Drinking water standards were
included in the planning process because Savannah River had
not developed a Land Use Plan that would permit rational
decisionmaking for the entire site. Lacking a Land Use
Plan, the environmental regulators assumed (and Savannah
River acceded to) the most stringent usage scenario, which
considers that groundwater under the F and H Areas might be
used one day as drinking water.
  It will take more than one hundred years for the
subterranean groundwater to become safe enough for drinking
water purposes. Consequently, Savannah River may continue
to pursue expensive remediation projects for longer than
would be necessary to protect human health and the
environment. However, the cost impact of unnecessary clean-
up activities cannot be de-termined at this time because any
change in acceptable contamination limits would still have
to be negotiated with the South Carolina Department of
Health and Environmental Control.
  The audit report recommended that Department management
complete the development of a Land Use Plan for the Savannah
River Site. The report also recommended that, if the
groundwater under the F and H Areas qualifies for
reclassification (including the intended uses as described
in the Land Use Plan), Savannah River should petition the
South Carolina Department of Health and Environmental
Control to reclassify the groundwater under the F and H
Areas to Class GC as outlined in South Carolina's "Water
Classifications and Standards." Department management
agreed with both recommendations. (ER-B-96-02)

     Management and Operating Contractors of the Nevada
Operations Office Are Used to Obtain Direct Contract Support
                   for Department Programs

  Department of Energy and Federal policies state that it is
inappropriate for program offices to use management and
operating contractors to obtain direct contract support for
their programs. When direct contract support is necessary,
program offices are required to use the Departmentms--not
the M&O contractorms--procurement procedures and personnel.
  The Office of Inspector General conducted an audit to
determine whether the Department's Nevada Operations Office
and its M&O contractor were following Federal and Department
policies with regard to directed support service
subcontractors. The audit showed that the Operation
Officems management and operating contractor had awarded
$2.5 million from October 1, 1992, through April 30, 1995,
in subcontracts that provided direct support to the
Operations Office and Headquarters program offices. The
Operations Office and its management and operating
contractor did not ensure that Department policy regarding
directed subcontracts was carried out. The management and
operating contractor was procuring services not directly
related to its mission. As a result, the Department paid
more in management and operating contractor award fees than
was necessary.
  The audit report recommended that Department management
act to strengthen internal controls over subcontracting and
discontinue directed support service subcontracts to its
management and operating contractors. Management did not
concur with the audit conclusion. (WR-B-96-07)

Review of Space Requirement and Minimization of Space Needed
           at Federal Energy Regulatory Commission

  Federal Property Management Regulations require Government
agencies to continuously review their space requirements and
minimize the need for space. The Federal Energy Regulatory
Commission stores furniture, automated data processing
equipment, and office supplies in a warehouse located in
Landover, Maryland. The annual operating cost for this
space (25,830 square feet) is about $245,000 in lease costs
and $210,000 for contractor personnel, for a total of
$455,000.
  An Office of Inspector General audit revealed that the
Commission was leasing more space than needed because
Commission officials understood that they were obligated by
terms of the lease to pay for the space until March 31,
2002. Auditors found, however, that the Commission could at
any time relinquish warehouse space by giving 120 days
notice. Because of this misunderstanding and the recent
relocation of the Commission to a newly furnished facility,
about 16,000 square feet of warehouse space was being used
to store furniture and equipment that was no longer needed
by the Commission. The audit also found that another 6,000
square feet was used to store office supplies instead of
using a more frequent ordering program that would reduce
space requirements.
  The audit report recommended that the Commission reduce
the need for warehouse space by excessing unneeded furniture
and equipment and reducing storage of office supplies. The
report also recommended that the Commission renegotiate the
contract to reduce contractor staff used to operate the
warehouse to reflect the reduction of its operations.
  Commission management plans to reduce warehouse space by
15,830 square feet, retain 10,000 square feet, and review
alternatives and options for expediting their excessing
property. Further, the Commission plans to reduce the
storage of office supplies by adopting a more frequent
ordering program and renegotiate the warehouse support
contract after the space is relinquished. (CR-B-96-01)

            The Department Needs Better Controls
              Over a Noncompetitive Cooperative
                          Agreement

  In November 1994, the Department of Energy entered into a
5-year $51.45 million noncompetitive cooperative agreement
with the State of Texas. The Department's share of the
agreement was $49 million and Texasm share was $2.45
million. Through this agreement, the Department provided
financial assistance to the State of Texas to establish the
Amarillo National Resource Center for Plutonium. The Center
sponsored research on issues relating to the storage,
disposition, potential use, and transportation of plutonium,
high explosives, and other materials generated from nuclear
weapons disassembly. The Department determined that the
financial assistance would be administered through a
cooperative agreement because the Department would have
substantial involvement during the agreement period.
  An Office of Inspector General audit disclosed that the
Department has had limited involvement in the Centerms
research projects and has not provided adequate management,
direction and control to ensure that the Center's activities
are beneficial and not duplicative. In addition, the
Centerms projects identified by the Department's Office of
Fissile Materials Disposition as supporting Defense Programs
activities have not been reviewed. The audit, as well as a
subsequent review performed by the Office of Fissile
Materials Disposition, showed that the Department funded
about $1.8 million during the first two years of the
Center's operation for research which duplicated research
conducted by the Departmentms national laboratories. The
duplication occurred because responsibility for technical
review was assigned at a level without authority to fully
coordinate review of the Center's research projects with the
Department's national laboratories.
  The audit report recommended that the Albuquerque
Operations Office, which has administrative cognizance over
the Center, ensure adequate Department involvement and
delineation of roles and responsibilities for managing,
directing, and controlling the Center's research. The
report also recommended that Albuquerque establish a
procedure with Headquarters Program Officers to ensure that
research proposed by the Center does not duplicate other
research by the national laboratories. Management agreed
with the audit recommendations. (WR-B-96-08)

                    PERFORMANCE MEASURE:

            AUDIT/INSPECTION SAVINGS, RECOVERIES
             AND FUNDS IDENTIFIED FOR BETTER USE

     Explanation: Costs which are recovered, saved,
     disallowed, or identified for better use (detailed
     definition appears in Section 4 of this Semiannual
     Report). For the Office of Audit Services, dollar
     amounts discussed for this performance measure are
     included in the audit statistics presented in
     Section 4 of the Semiannual Report.


    Greater Management Controls Are Needed Over Pension Plans

  The Department of Energy funds pension programs established by
its management and operating contractors for their contract
employees. As part of its contracts with the University of
California, the Department funded the retirement program for
employees working at Los Alamos, Lawrence Livermore, and Lawrence
Berkeley National Laboratories. Under the terms of the
contracts, the University of California has wide latitude in the
management of these programs. It can, for example, unilaterally
change the future pension benefits of employees at the three
national laboratories.
  The Office of Inspector General has issued five audit reports
on the pension plans operated for contract employees, including
those for the employees of the University. In general, the
reports have recommended methods for improved Departmental
management of the pension plans for those employees.
  An Office of Inspector General audit reported an opportunity to
recover some excess pension assets and improve the Departmentms
ability to manage its interest in contractor pension funds. On
May 15, 1994, the Department announced its decision to extend and
renegotiate its contracts with the University of California for
the management and operation of the three national laboratories.
Contracts for operating these laboratories would have expired in
1997. The audit concluded that the renegotiation process would
provide the Department an opportunity to recover at least $620
million in excess assets from the pension plans it has funded for
University of California employees at the Department's
laboratories and to improve the Department's management of those
pension plans. Because the laws governing pension plans restrict
an employer's ability to remove assets from pension plans,
recovering the excess funds may, however, require special
legislation. The audit concluded that the overfunded pension
position of the University of California Plan (at least $620
million attributable to the Department) is so extreme that the
Department needs to consider this unusual option.
  The audit report recommended that the Department set
negotiation objectives to: (1) require the University of
California to cooperate with the Department's efforts to recover
the excess pension assets, including jointly sponsoring special
legislation, if necessary; and (2) modify the pension plan
arrangements to improve its ability to manage future pension
benefits for the University of California employees at the
Department's national laboratories. Department management agreed
in principle with the report recommendations, but declined to
discuss specific elements of the Department's negotiating
position with the University. (IG-0394)

  Audit Discloses Internal Control Weaknesses in the Use of the
                  Departmentms User Facilities

  The Federal Government has for many years fostered scientific
and technical education and research to improve Americams
competitive edge in the international marketplace. In recent
years, it has become important to continue developing new
technologies and to transfer these technologies to industry.
Consequently, the Department of Energy has made certain
designated research facilities available to universities,
industry, and other research organizations. Due to technology
transfer efforts and excess capacities, even more facilities are
being made available to outside users. Today, Department user
facilities fall into one of three categories: designated user
facilities, other user resources, and Technology Deployment
Center/User Facilities.
  An Office of Inspector General audit was conducted to
determine whether (1) user facility agreements were priced to
ensure full cost recovery; (2) user facility agreement
collections were properly deposited; and (3) financial assistance
provided to visiting researchers was allowable and reasonable.
The audit found that the Department priced Technology Deployment
Center/User Facility and designated user facility agreements in
accordance with Department policies. The audit disclosed,
however, that other user facility agreements were not always
priced to ensure full cost recovery, and collections were not
always properly deposited. For example, Los Alamos National
Laboratory and the Idaho National Engineering Laboratory did not
always price user facility agreements at full cost. As a result,
Los Alamos did not recover about $725,000 due to the Treasury.
The audit further revealed that Los Alamos retained user
agreement collections in its letter of credit account rather than
depositing the collections into the Treasury. As of the end of
Fiscal Year 1995, Los Alamos was holding over $943,000 in user
facility agree-ment collections, including about $168,000 that
should have been deposited to the Treasury to offset the
Departmentms administration appropriation. The audit also showed
that one designated user facility provided visiting researchers
with about $689,000 in questioned financial and housing
assistance costs.
  The audit report recommended corrective actions regarding the
pricing of user facility agreements, handling of user facility
agreement collections, and assistance to visiting researchers.
Department management generally agreed with the findings, and
proposed corrective actions to address the reportms
recommendations. (IG-0395)

                      PERFORMANCE MEASURE:

                       COMPLAINTS RESOLVED

     Explanation: Complaints and allegations resolved as a
     result of OIG work. Complaints and allegations are
     considered resolved when a case is closed.
     Prosecutions and exonerations are included in this
     measurement.

               Brookhaven National Laboratory Acts
                 to Address Environmental Issues
              Related to Groundwater Contamination

  The Office of Inspector General investigated allegations of
possible groundwater contamination emanating from the Brookhaven
National Laboratory. The investigation determined that
management was aware of and was taking action to correct
situations with potential negative environmental or safety
impacts which had been brought to its attention.
  Some of the complainantsm concerns included contaminated
groundwater surrounding liquid storage tanks, lack of a
maintenance schedule for an evaporator used to remove radioactive
nuclei from water, storage tank liquid level alarms which
occasionally malfunctioned, and lack of routine calibration of a
distillate used to monitor storage tank tritium levels. One
Brookhaven employee who had expressed concerns in the past
acknowledged that Laboratory management had addressed some of the
environmental issues that had been brought to its attention,
including calibration of the distillate.
  The investigation found that the problem of groundwater
contamination at Brookhaven has been well known for a number of
years. In December 1989, Brookhaven was placed on the National
Priority List for environmental clean-up. An inter-agency
agreement was established among the Department of Energy, the
Environmental Protection Agency, and the New York Department of
Conservation which covers site cleanup and environmental
restoration activities.
  Because contaminated groundwater has been found near some
private wells, the Department of Energy is arranging for about
500 homes to be hooked up to a public water system.
Additionally, the evaporator which had been a subject of concern
has been shut down and its work is now being performed under
contract.
  The investigative report recommended that management invoke the
appropriate contractual remedies for any performance by
Brookhavenms management and operating contractor which did not
meet the terms and conditions of the contract. The report
further recommended that management ensure that procedures are in
place to prevent reoccurrence of the conditions which resulted in
the environmental and safety concerns in the first place.
  Management concurred with the reportms recommendations and
advised the Office of Inspector General that the management and
operating contract had been converted to a performance-based
contract to provide incentive to prevent reoccurrence. Also,
management provided the Office of Inspector General with a
summary of planned actions as well as actions already taken to
resolve the environmental and safety concerns that had been
brought to its attention. (I96PT004)

                    Department Employee Uses
                Government Shuttle Bus to Commute
                  to Work, and Charges Overtime

  A complainant alleged to the Office of Inspector General that a
Department employee used a Government shuttle bus to commute to
her job at Germantown, Maryland, and that she charged the
Government overtime for time spent on the bus.
  An investigation determined that the employee had been using
the Government shuttle bus to commute since early 1993 when her
job had been transferred from Rosslyn, Virginia, to Germantown.
The employeems supervisor acknowledged that he knew of the
employeems practice of using the Government shuttle bus to
commute to her job and that he should have questioned the
overtime claims. He stated that he had taken over supervisory
responsibilities for the employee from another supervisor who had
retired, and he had assumed that the commuting arrangement had
been approved by the previous supervisor. The previous
supervisor denied any knowledge of the commuting arrangement and
the overtime charges.
  The investigative report recommended that management take
appropriate administrative disciplinary action against the
employee for improperly claiming overtime hours that she did not
work and for improperly using a Government shuttle bus for
commuting to her work place. Further, management should take
action to recover about $2,260 in questionable overtime payments.
  The report also recommended that management take appropriate
administrative disciplinary action against the employee's
supervisor for improperly certifying unworked overtime hours for
the employee. Additionally, management should ensure that
supervisors receive appropriate training and are aware of their
responsibilities as certifying officials of employee time and
attendance. (I95HQ027)

                      PERFORMANCE MEASURE:

                 INVESTIGATION RECOVERIES/FINES
               AND FUNDS IDENTIFIED FOR BETTER USE

     Explanation: Applies to investigations and allegation-
     based inspections only, and consists of recoveries
     (both property and money) and fines which were
     collected as a result of management actions based on
     OIG work, as well as funds identified in reports for
     better use. Statistics on investigative
     recoveries/fines will be collected separately and will
     be included in Section 4 of the Semiannual Report.

 Violations of the Clean Water Act Lead to $22 Million in Fines
                          and Penalties

  The U.S. Attorney's Office in Syracuse, New York, requested
assistance from the Office of Inspector General in investigating
allegations of a gas pipeline company's violations of the Clean
Water Act. Office of Inspector General activities included
reviewing numerous records, planning and participating in wetland
searches, and interviewing witnesses. Also participating in the
investigation were the Federal Bureau of Investigation and the
criminal investigation divisions of the U.S. Environmental
Protection Agency and the U.S. Army.
  The joint investigation determined that the pipeline company
violated its construction permits to build a gas pipeline from
Ontario, Canada, to Long Island Sound, New York. Specifically,
the company did not clean up various wetlands and streams
disturbed during construction, install required erosion control
devices, or install trench breakers or clay plugs by the edges of
all wetlands crossed or on slopes traversed during construction.
  In May 1996, the pipeline company pled guilty in Federal court
to four felony violations of the Clean Water Act. The company
agreed to: (1) pay $22 million in fines and penalties, (2) pay
$800 in court costs, (3) perform remedial action at identified
streams and wetlands, (4) implement a 10-year safety plan to
monitor, identify and remediate potential damage to the pipeline,
and (5) implement a backfill stability monitoring and maintenance
plan.
  Four senior officials with the pipeline company also pled
guilty in Federal court to violations of the Clean Water Act
(I94OP002)

               False Claims for Lodging, Per Diem
                    and Travel Costs Lead to
                    $396,000 Civil Settlement

  The U.S. Attorneyms Office in Seattle requested assistance from
the Office of Inspector General in investigating allegations of
false claims associated with contracts an accounting firm had
with the Bonneville Power Administration and the Department of
Justice.
  The investigation determined that three of the accounting
firmms employees assigned to an audit of the Bonneville Power
Administration had pooled their funds to rent a studio apartment
in Seattle. Having a Seattle residence allowed the three
employees to appear to qualify for lodging, per diem and travel
expenses while working on the contract with the Bonneville Power
Administration in Portland. The three auditors were employed
full-time on the Bonneville Power Administration audit in
Portland and Portland, not Seattle, was the site of their primary
residences.
  In a civil settlement agreement filed in U.S. District Court,
the accounting firm agreed to pay the Government $396,000.
(I95RL021)
                    Computer Valued at $8,000
                 is Stolen from the Departmentms
                     K-25 Site at Oak Ridge

  The Office of Inspector General received information from
security officials that an IBM Thinkpad computer valued at $8,000
was stolen from a locked room in a building at Oak Ridgems K-25
Site.
  During the investigation, information was received that a
contractor employee had stolen the computer and had sold it to
buy drugs. The contractor employee confessed to the theft and
implicated two non-contractor individuals as accomplices in the
crime. Using his confession to Office of Inspector General
investigators as a basis for action, the contractor fired the
employee.
  The Assistant U.S. Attorney accepted the case for criminal
prosecution and a Federal Grand Jury returned an indictment
against the former contractor employee. His two accomplices were
arrested by local law enforcement authorities on outstanding drug
warrants. The former contractor employee pled guilty in the
Eastern District of Tennessee to the charges against him, and he
agreed to make full monetary restitution. (I95OR016)

                  Undocumented Labor Charges at
                 Bonneville Power Administration
                          Are Rejected

  Bonneville Power Administration officials referred evidence of
overcharges by one of Bonnevillems contractors to the Office of
Inspector General for review.
  The investigation found that the contractor had created and
added labor hours to its timekeeping system just before
completion of claims submitted to Bonneville for payment, and the
newly added charges were not supported by payroll records.
Contractor officials could not provide sufficient documentation
to justify the questioned labor hours. The potential loss to
Bonneville resulting from the contractorms unsupported charges
was estimated at over $100,000.
  Based on their own audit and Office of Inspector General
review, Bonneville and its contractor agreed to settle the
dispute without litigation with an arrangement whereby Bonneville
retained $105,000 that would have otherwise been paid to the
contractor. (I92RL001)

                 A Contractor Employee Accepted
                Unauthorized Telephone Toll Calls

  According to allegations received by the Office of Inspector
General, a Sandia National Laboratory employee accepted toll
charges for unauthorized telephone calls.
  An investigation determined that the employee had accepted over
700 telephone calls at an office number from prison inmates
located at the Central New Mexico Correctional Facility at Los
Lunas and the Penitentiary of New Mexico at Santa Fe. The case
was presented to a grand jury which returned an indictment for
theft of Government property over $250. The employee voluntarily
left employment at Sandia and signed a pretrial diversion plea
agreement which provided for the repayment of over $6600 in
unauthorized accepted telephone toll call charges. (I95AL008)

 Los Alamos Subcontractor's Lax Policy on Time Charging Leads to
                              Abuse

  The Office of Inspector General was informed that a supervisor
employed by a Los Alamos National Laboratory subcontractor
claimed premium pay to which he was not entitled. The
subcontractor's employees were allowed to estimate their time
working in a plutonium vault, and it was alleged that they
consistently overestimated their time or falsified their payrolls
by submitting claims for time they did not work.
  The investigation substantiated the allegation against the
supervisor. The Assistant U.S. Attorney, District of New Mexico,
accepted the case against the supervisor for civil prosecution
and sent him a demand letter for over $4200 in premium pay and
absent without leave overbilling. The supervisor responded to
the demand letter by sending a certified check for the full
amount requested to the U.S. Attorney's Office. (I95AL004)

                 Freon Cylinders Are Stolen from
              the Department's Savannah River Site

  A contractor security official at the Department's Savannah
River Site reported to the Office of Inspector General that a
Westinghouse Savannah River Company employee had found 76 30-
pound freon cylinders, valued at over $18,000, missing from a
storage facility.
  An Office of Inspector General investigation determined that
two Westinghouse employees with access to the storage area had
collaborated to steal the freon cylinders and had sold them to
six local businesses and three individuals for between $125 and
$250 per cylinder. Westinghouse fired the employees and barred
them from entering the Savannah River Site for one year. The
Assistant U.S. Attorney accepted the case for prosecution, and a
grand jury indicted the two employees. They pled guilty to theft
of Government property and were sentenced to six months in-house
detention with electronic monitoring. They also agreed to pay
restitution of $19,845. (I95SR017)

                       A Debarred Company
                      Voluntarily Discloses
                 Obtaining Government Contracts

  A Department of Justice attorney notified the Office of
Inspector General that a company had voluntarily disclosed that,
even though it had been debarred, it had obtained Government
contracts, including contracts with Sandia National Laboratories
and possibly other Department entities. The attorney requested
assistance in determining whether the company had disclosed all
Department of Energy contracts it had obtained during the time of
its debarment.
  An Office of Inspector General review of Department procurement
files at Headquarters and in the field disclosed no contracts
with the debarred company other than those which the company had
voluntarily disclosed. In a settlement agreement, the company
agreed to pay the Government all profits from the Government
contracts as well as penalties. The monetary recovery which
pertained to Department of Energy contracts was $114,209.
(I96AL016)

 A Department Laboratory Violated Its Own Internal Policies and
             Procedures Concerning Temporary Travel

  An Office of Inspector General hotline complaint alleged that
Argonne National Laboratory authorized one of its employees to
spend several months on a temporary assignment in Washington,
D.C. The employee allegedly sold his home, was having a new home
built, and his need for housing was connected to the temporary
assignment.
  An Office of Inspector General investigation disclosed that
Argonne authorized the employee to take a 6-month temporary
assignment to Washington, D.C., and later granted a 2-month
extension. At the conclusion of the temporary assignment, the
employee returned to Argonne and moved into his now completed new
home.
  The investigation identified $28,443.51 in costs for the
temporary assignment. An investigative report recommended that
several thousand dollars of costs be disallowed, that Argonne
follow established policies and procedures concerning temporary
transfers, and that Argonne contact the Department concerning
temporary transfer issues that are not covered by Argonne
policies or require Department approval.
  As a result of the investigative report, the Department and
Argonne reached an agreement to disallow $6,680 of the expenses,
and Argonne agreed to follow appropriate rules and regulations on
temporary transfers. (I95CH002)

                   Allegations of Overcharging
by Training Subcontractor Result in Restitution to the Department

  The Office of Inspector General received an allegation that a
local company defrauded the Department's Savannah River Site for
the training of eleven displaced contract employees. The
Department had made up to $5,000 available per employee for each
of two years under a workforce restructuring program to retrain
displaced employees. Only the cost of the course, which was
subject to federal and state taxes, could be charged to the
government. The company charged $5,000 for each employee to
compensate for the difference deducted by taxes. The company
normally billed walk-in customers only $3,000 or $3,850 for the
same course. The Civil Division of the U. S. Attorneyms Office
negotiated restitution with the company in the amount of $13,800.
(I95SR014)

              False Certifications for Five Welders
            Results in a Civil Settlement of $30,000

  A Department of Energy management and operating contractor
employee provided information to the Office of Inspector General
concerning false welding certificates on five welders employed by
a subcontractor at the Department's Hanford, Washington, site.
Officials from the subcontractor stated to an investigator for
the Office of Inspector General that the company had provided
false certifications on the welders. The subcontractor paid the
Government $30,000 in a civil settlement agreement. (I94RL026)

  A Subcontractor Employee at Idaho Falls Downloaded Textual
                          Pornography

  A Department of Energy management and operating contractor
official informed the Office of Inspector General that a
subcontractor employee at the Department's Idaho Falls Site
downloaded textual pornography from the Internet and stored the
material on a Government computer. In response to an
investigative report, the subcontractor reimbursed the Government
over $9,300 for the time expended by the employee on the illicit
activities, and the employee was reprimanded for his use of a
Government computer to store pornographic material. (I94IF014)

                        NONCONCURRENCE
           WITH OFFICE OF INSPECTOR GENERAL REPORTS

    Explanation: The reports summarized in this section
    met with Department management's general
    nonconcurrence. In some cases, management may have
    concurred with a finding or principle stated in a
    report, but it did not concur with the recommendations
    or agree to take alternative actions to address the
    issues raised in the report. The Office of Inspector
    General cannot compel compliance with its
    recommendations. Nevertheless, the Office considers it
    an accomplishment just to have made its customers aware
    of important issues, and recommendations offered in
    these reports may still be of use to management at some
    future time.

              Management Did Not Commit to Doing
             A Cost-Benefit Analysis on Revisions
                 to Its Acquisition Regulation

  A Department objective has been to shift more risk for the
operation of its facilities to its managing contractors. In
1991, under the Accountability Rule, the Department increased
contractor fees as an incentive to improve contractor performance
and accountability. In January 1994, the Office of Inspector
General issued an audit report on the implementation of the
Accountability Rule which concluded that the Department paid five
contractors $23 million in increased fees with no conclusive
evidence that this rule was meeting its objective. Further, the
report noted that the Department had not achieved any measurable
benefits for its investment.
  Now the Department is crafting a new fee policy which may,
depending on how it is implemented and executed, increase
available fees by as much as $218 million annually. This
increase, which is above the amount provided through the
Accountability Rule, is expected to be an incentive to improve
management and operating contractor performance. Prudent
business practice dictates that any change which in-creases costs
to the Department should be analyzed to determine if the benefits
justify the cost. This change, however, was not subjected to a
rigorous analysis to determine its cost and benefits.
  A cost-benefit analysis would identify the risks assumed by the
contractors, identify any other quantitative or qualitative
benefits that would accrue to the Department as a result of the
new fee policy, and enable the Department to establish a
benchmark and expectation level for measuring the effectiveness
of performance-based contracting. If appropriate benchmarks are
not established, the Department may be providing management and
operating contractors with substantial increases in fees with no
method in place to measure actual benefits.
  Management elected to transmit a notice of proposed rulemaking
to the Office of Management and Budget without fee policy
revisions recommended in the audit report, and indicated that the
fee policy was still in an evolutionary state. Although
management stated that it would review the final proposed
rulemaking to ensure that its objectives were met, it did not
commit to doing the cost-benefit analysis recommended in the
audit report. (IG-0390)


                            SECTION 2


              OFFICE OF INSPECTOR GENERAL OVERVIEW



      This section describes the mission, staffing and
organization of the Office of Inspector General, and discusses
key Office of Inspector General concerns which have potential to
impact the accomplishment of audit, inspection, or investigative
work.


                   OFFICE OF INSPECTOR GENERAL
                            OVERVIEW

                             MISSION


     The Office of Inspector General operates under the Inspector
General Act of 1978, as amended, with the following
responsibilities:

    To provide policy direction for, and to conduct, supervise,
  and coordinate audits and investigations relating to the programs
  and operations of the Department of Energy.

    To review existing and proposed legislation and regulations
  relating to programs and operations of the Department of Energy,
  and to make recommendations in the semiannual reports required by
  the Inspector General Act of 1978 concerning the impact of such
  legislation or regulations on the economy and efficiency in the
  administration of programs and operations administered or
  financed by the Department, or on the prevention and detection of
  fraud and abuse in such programs and operations.

    To recommend policies for, and to conduct, supervise, or
  coordinate other activities carried out or financed by the
  Department of Energy for the purpose of promoting economy and
  efficiency in the administration of, or preventing and detecting
  fraud and abuse in, its programs and operations.

    To recommend policies for, and to conduct, supervise, or
  coordinate relationships between the Department of Energy and
  other Federal agencies, state and local government agencies, and
  nongovernmental entities with respect to:

     }      All matters relating to the promotion of economy and
         efficiency in the administration of, or the prevention and
         detection of fraud and abuse in, programs and operations
         administered or financed by the Department.

     }      The identification and prosecution of participants in such
         fraud or abuse.

    To keep the Secretary of the Department of Energy and the
  Congress fully and currently informed, by means of the reports
  required by the Inspector General Act of 1978, concerning fraud
  and other serious problems, abuses and deficiencies relating to
  the administration of programs and operations administered or
  financed by the Department of Energy, to recommend corrective
  action concerning such problems, abuses, and deficiencies, and to
  report on the progress made in implementing such corrective
  action.

     In addition to the above, the Office of Inspector General
receives complaints by contractor employees alleging reprisal by
their employers for engaging in activities protected under
Section 6006 of the Federal Acquisition Streamlining Act of 1994
or the Department of Energy Contractor Employee Protection
Program (10 CFR Part 708), and attempts to resolve those
complaints through investigation and adjudication, or alternative
dispute resolution. Further, the Office of Inspector General
receives and investigates allegations by Federal and contractor
employees of misuse of the personnel security process in reprisal
for engaging in lwhistleblowern activities.


                      ORGANIZATION AND STAFFING


     The activities of the Office of Inspector General are
divided into four offices which are administered by Deputy
Inspectors General.

     The Office of Audit Services provides policy direction and
supervises, conducts and coordinates all internal and contracted
audit activities for Department of Energy programs and
operations. Audits are planned annually through a prioritized
work planning strategy that is driven by several factors,
including the flow of funds to Departmental programs and
functions, strategic planning advice, statutory requirements and
expressed needs. The Office of Inspector General audit staff has
been organized into three regional offices, each with field
offices located at major Department sites: Capital Regional
Audit Office, with field offices in Washington, DC, Germantown,
and Pittsburgh; Eastern Regional Audit Office, with field offices
located at Cincinnati, Chicago, New Orleans, Oak Ridge,
Princeton, and Savannah River; and Western Regional Audit Office,
with field offices located at Albuquerque, Denver, Idaho Falls,
Las Vegas, Livermore, Los Alamos, and Richland.

     The Office of Investigations performs the statutory
investigative duties which relate to the promotion of economy and
efficiency in the administration of, or the prevention or
detection of, fraud or abuse in programs and operations of the
Department. Priority is given to investigations of apparent or
suspected violations of statutes with criminal or civil
penalties, especially procurement fraud, environmental, health
and safety matters, and matters which reflect on the integrity
and suitability of Department officials. Suspected criminal
violations are promptly reported to the Department of Justice for
prosecutive consideration. The Office is organized into four
regional offices, each with reporting offices located at major
Department sites: (1) the Northeast Regional Office is located
in Washington, DC, with reporting offices in Pittsburgh and
Chicago; (2) the Southeast Regional Office is located in Oak
Ridge, with reporting offices located in Cincinnati and Aiken;
(3) the Southwest Regional Office is located in Albuquerque, with
a reporting office in Denver; and (4) the Northwest Regional
Office is located in Richland, with reporting offices in Idaho
Falls and Livermore. The Inspector General Hotline is also
organizationally aligned within the Office of Investigations.

     The Office of Inspections performs inspections and analyses.
This Office also performs reviews based on administrative
allegations and processes referrals to Department management for
appropriate action. The Office of Inspections also investigates
contractor employee allegations of employer retaliation for
engaging in activities protected by Section 6006 of the Federal
Acquisition Streamlining Act of 1994, or the Department of Energy
Contractor Employee Protection Program (10 CFR Part 708). The
Inspection staff is organized with a Headquarters organization
and two regional offices. The Eastern Regional Office is located
in Oak Ridge, with a field office in Savannah River. The Western
Regional Office is located in Albuquerque, with a field office in
Livermore, California.

     The Office of Policy, Planning and Management directs the
development, coordination, and execution of overall Office of
Inspector General management and administrative policy and
planning. This responsibility includes directing the Office of
Inspector Generalms strategic planning process, financial
management activities, personnel management programs, procurement
and acquisition policies and procedures, and information
resources programs. In addition, staff members from this Office
represent the Inspector General in budget hearings, negotiations,
and conferences on financial, managerial, and other resource
matters. Also, staff members provide management and
administrative support services, including personnel,
procurement, security, travel, training, and automated data
processing services. The staff coordinates all activities of the
Presidentms Council on Integrity and Efficiency in which the
Inspector General participates. The Office is organized into
three offices: Administrative Services, Human Resources
Management, and Information Resources.


               INSPECTOR GENERAL RESOURCE CONCERNS


     The Office of Inspector General has an outstanding record of
identifying waste, fraud and abuse in Department of Energy
programs and operations and in identifying programs which are no
longer needed; streamlining Departmental operations; and
identifying programmatic funds which can be put to better use.
The Office of Inspector General consistently provides the
Department with meaningful recommendations for program
improvements and has a proven track record of returning more in
savings and funds put to better use than it costs to operate the
office. For example, Office of Inspector General actions in
identifying attainable economies and efficiencies in Department
operations have recently provided a positive dollar impact of
about $4 million per audit employee per year. This confirms that
the operations of the Office of Inspector General are "revenue
positive."
     The Office of Inspector General has also established itself
as a major player in the investigative area as evidenced by its
successful criminal and administrative investigations which have
been the subject of commendations from U.S. Attorneys throughout
the nation. For example, the Office of Inspector General has
significantly increased the number of cases accepted for criminal
and civil prosecution and more than doubled the number of
criminal convictions from previous years. As a result of these
and other investigative efforts, significant dollar recoveries
have occurred and criminal activity within the Department and its
contractor community has been investigated and prosecuted.
     In terms of its own organization, the Office of Inspector
General has continued to streamline its processes and downsize
its staff consistent with the objectives of the National
Performance Review.
     Due to the current Government downsizing and reduced
budgets, the Office of Inspector General has been forced to
further reduce its work force, which will result in unfulfilled
customer expectations. It is becoming extremely difficult to
fulfill our statutory obligations and to provide program results
reviews. We have been operating on an economical lbare bonesn
basis for some time now. For the last several years, the Office
of Inspector Generalms budget request has been significantly
reduced. In Fiscal Years 1996 and 1997, our appropriations were
about 18 and 19 percent respectively below our requested levels.
Additionally, the Office of Inspector General has lost 14 percent
of its staff over the last several years while hiring no new or
replacement personnel during the last year and a half. At the
same time, expenditures for travel, training, permanent change of
station moves, and overtime have been restricted to minimal
requirements.
     The severe resource constraints occurred at a time when
additional programmatic responsibilities, resulting in increased
work load, were levied upon the Office of Inspector General
without the provision of additional resources. For example,
passage of the Government Management Reform Act of 1994 gave the
Office of Inspector General the responsibility of auditing the
consolidated financial statements of the Department. This
enormous effort consumes about 50 staff members and requires the
expert assistance of a major accounting firm on a contractual
basis. It is recognized that these audits bring a new business-
oriented approach to Government management and make Government
more accountable, and they provide assurance as to the integrity
of the Departmentms financial management systems which Congress
has been highly critical of in the past. Yet no funds were
provided for this new function.
     Another resource concern is that, by law, the Office of
Inspector General must provide its investigators with
availability pay which amounts to additional expenditures of $1
million annually. No funds were provided for this expenditure.
These are just two examples of increased resource requirements
for the Office of Inspector General that came about without
commensurate funding or staffing.
     Since the early 1990s, successive Secretaries of Energy have
highlighted the shortage of audit resources as a Department of
Energy material weakness in reports to the President as part of
the Federal Managers' Financial Integrity Act process. Now the
Department is experiencing significant realignment and downsizing
which increase vulnerabilities and organizational turbulence
resulting in weaker internal controls. This environment places
greater, not less, reliance on Office of Inspector General
functions.
     The Office of Inspector General matched increased work
demands with Fiscal Year 1996 staffing and funding levels in part
by further reducing the volume of audit, inspection, and
investigation work performed. We worked priority issues with the
resources available, including:

    Continuing implementation of the Chief Financial Officers
  Act of 1990 and the Government Management Reform Act of 1994
  audit requirements.

    In coordination with the Department, relying on our
  Cooperative Audit Strategy where contractor internal audits
  provide reasonable assurances that the procedures used to
  determine costs and charges to the Government are accurate,
  complete, and in compliance with Department contracts. It should
  be noted, however, that as downsizing occurs within contractor
  internal audit staffs, our ability to rely on this Strategy could
  be impaired.

    Working highest priority issues, categorized as "most
  significant," and addressing remaining issues afterward until
  resources are exhausted.

    Raising thresholds for accepting complaints for Office of
  Inspector General action and referring more complaints to
  Department management for resolution.

    Investigating as a high priority those cases with the best
  potential for successful criminal or civil prosecution, and only
  investigating the remainder as resources permit. Criminal cases
  which do not score high may be referred to other law enforcement
  agencies for their consideration, put on hold in the event that
  resources might become available, referred to Department
  management for action, or delayed indefinitely.

    Conducting administrative allegation inspections (which are
  highly focused fact-finding reviews) only in response to more
  significant allegations of waste or mismanagement.

     The Office of Inspector General's funding has been reduced
by 24 percent since Fiscal Year 1992. As we begin Fiscal Year
1997, the Office of Inspector General faces further budget and
staffing reductions. Under the Departmentms Strategic Alignment
Initiative, the Office of Inspector General is required to reduce
its work force an additional 29 percent by Fiscal Year 2000.
This added reduction to our resource levels during a time of
major internal control change and downsizing within the
Department of Energy will have a serious impact on the Office of
Inspector Generalms ability to perform its statutory mission.
The Office of Inspector General will continue to do its best to
accomplish its statutory mission with the remaining resources.
However, diminished Office of Inspector General resources affect
our ability to provide reasonable assurance to the Secretary that
the Department is operating with integrity, and may erode
taxpayer confidence.


                   MANAGEMENT REFERRAL SYSTEM


     The Office of Inspections manages and operates the Office of
Inspector General Management Referral System. Under this system,
selected matters received through the Office of Inspector General
Hotline or from other sources are referred to the appropriate
Department managers or other Government agencies for review and
appropriate action. We referred 208 complaints to Department
management and other Government agencies during the reporting
period. We asked Department management to respond to us
concerning the actions taken on 88 of these matters. Complaints
referred to the Department managers included such matters as time
and attendance abuse, misuse of Government vehicles and
equipment, violations of established policy, and standards of
conduct violations. Referrals to management resulted in 4
administrative disciplinary actions and 5 monetary recoveries
during the reporting period. The following are examples of the
results of referrals to Department management.

    Contrary to policy at a Department laboratory, a contractor
  employee was authorized by laboratory (contractor) management to
  participate in outside employment that required the use of
  laboratory resources. Corrective action included the contractor
  reimbursing the Government for the use of the resources and
  management taking steps to better familiarize employees,
  managers, and supervisors with policies and procedures pertaining
  to outside employment.

    As a result of an allegation being substantiated that
  management at a Department laboratory had not taken appropriate
  followup action on a safety finding in an accident investigation
  report, Department management has tasked laboratory management
  with taking several specific corrective measures.

    An allegation that a contractor employee was circumventing
  procurement procedures was substantiated; however, the employee's
  motivation appeared to be to expedite the procurement process.
  The contractor's procurement procedures have been modified to
  facilitate the procurement process.

    Three Department employees responsible for the unauthorized
  destruction of Government property reimbursed the Government for
  the replacement cost of the destroyed property.

    As a result of an allegation raising concerns about whether
  two specified Department organizations were able to effectively
  interact to successfully perform their respective duties,
  Department management initiated an independent review of the
  interaction between these two organizations. The review
  identified areas of concern to the two organizations, and several
  recommendations for improvements were made.

    A Department employee was counseled as a result of an
  allegation being substantiated that the employee had used
  Government time and computer resources to conduct personal
  business.


               LEGISLATIVE AND REGULATORY OVERVIEW


Congressional Requests

     During the reporting period, congressional committees or
subcommittees, members of Congress, and their respective staffs
made 43 requests to the Office of Inspector General. We
responded by testifying at one hearing, providing 3 briefings,
and providing data or reports in 53 instances, including 15
interim responses and 38 final responses. Interim responses are
provided for open matters which remain under review by the Office
of Inspector General.

Legislative Review

     In accordance with the Inspector General Act of 1978, the
Office of Inspector General is required to review existing and
proposed legislation and regulations relating to Department
program and operations, and to comment on the impact which they
may have on economical and efficient operations of the
Department. During this reporting period, the Office coordinated
and reviewed 4 legislative and regulatory items.


                  INSPECTOR GENERAL REPORTS AVAILABILITY


On the Internet

     As part of an ongoing effort to streamline operations and
provide better service to customers, many Office of Inspector
General audit and inspection reports are available on the
Internet. Hardcopy distribution is costly, time consuming and
often may not reach the requester in a timely fashion. Making
our reports available on the Internet is an efficient way to
distribute reports and should be of value to our customers.

     Our reports are available in plain text format (ASCII) to
anyone with Internet Gopher (a simple client/server protocol used
to organize access to Internet resources), or file transfer
protocol (FTP) capability. Users can find our reports at
gopher.hr.doe.gov, selecting "Department of Energy Information"
from the first menu, and then selecting "DOE Inspector General
Reports." Our published reports can also be obtained via
anonymous FTP at vm1.hqadmin.doe.gov. Once at that location, the
user can go to the IG directory to download available reports.

By U.S. Mail

     Persons wishing to request hardcopies of reports to be
mailed to them may do so by calling the automated Office of
Inspector General Reports Request Line at (202) 586-2744. The
caller should leave a name, mailing address, and identification
number of the report needed. If the report's identification
number is unknown, then the caller should leave a short
description of the report and a telephone number where the caller
may be reached in case further information is needed to fulfill
the request.

Requests by Telefax

     In addition to using the automated Office of Inspector
General Reports Request Line, persons may telefax requests for
reports to (202) 586-3636. Telefaxing requests may be especially
convenient for people requesting several reports.

Point of Contact for More Information

     Persons with questions concerning the contents,
availability, or distribution of any Office of Inspector General
report may contact Wilma Slaughter by telephone at (202) 586-1924
or via the Internet at wilmatine.slaughter@hq.doe.gov.



                              SECTION 3
                         REPORTS ISSUED



     The 52 audit reports issued during this semiannual reporting
period are listed below in three categories: contract and grant,
operational, and financial reports. Significant financial
results associated with each report are also presented when
applicable. Two inspection reports are listed separately.

                         REPORTS ISSUED


                 CONTRACT & GRANT AUDIT REPORTS

ER-C-96-02 Final Audit of U.S. Department of the Army Contracts
           with Princeton University, Princeton, New Jersey,
           April 1, 1996
           Questioned Costs: $224,894

ER-C-96-03 Field Pricing Review of Lockheed Martin Energy
           Systems' Response to General Dynamics Land Systems'
           RFP PR 25136, April 10, 1996

ER-C-96-04 Final Audit of Princeton Universityms Costs Claimed
           for Subcontract XD-0-10076-1 Under National Renewable
           Energy Laboratory's U.S. Department of Energy
           Contract DE-AC02-83CH10093, May 7, 1996
           Questioned Costs: $87,613

ER-C-96-05 Interim Audit of Princeton University's Costs for
           Environmental Remediation of A and B Sites on
           Forrestal Campus Through December 31, 1995, September
           25, 1996
           Questioned Costs: $73,050

ER-C-96-06 Final Audit of Princeton University's Costs Claimed
           for U.S. Department of Energy Contract DE-AC02-
           76ER03072, September 25, 1996
           Questioned Costs: $773

WR-C-96-05 Audit of Costs Claimed Under Contract No. DE-AC08-
           93NV11011, October 1, 1992, Through July 31, 1995,
           Wackenhut Services, Inc., Las Vegas, Nevada, July 25,
           1996
           Questioned Costs: $1,735     Unsupported Costs:
           $1,129

WR-G-96-01 Audit of Funds Expended Under Grant No. DE-FG04-
           90AL65780, Modification 008, July 14, 1994, Through
           January 31, 1995, with the State of Texas, April 3,
           1996


                   OPERATIONAL AUDIT REPORTS

IG-0388    Audit of Internal Controls Over Special Nuclear
           Materials, April 4, 1996

IG-0389    Summary Audit Report on Lessons Learned from the
           Superconducting Super Collider Project, April 23,
           1996

IG-0390    Audit of Department of Energy Management and
           Operating Contractor Available Fees, May 8, 1996
           Savings: $218,000,000

IG-0391    Audit of Department of Energy's Activities Designed
           to Recover the Taxpayers' Investment in the Clean
           Coal Technology Program, June 6, 1996

IG-0392    Audit of the Department of Energy Program Offices'
           Use of Management and Operating Contractor Employees,
           July 8, 1996

IG-0394    Special Audit of Pension Plans for Department of
           Energy Contract Employees of the University of
           California, August 19, 1996
           Savings: $316,000,000

IG-0395    Audit of the Department of Energy's User Facilities,
           August 19, 1996
           Questioned Costs: $689,166     Savings: $893,586

IG-0396    Audit of Department of Energy's Contractor Liability
           Insurance Costs, September 13, 1996

AS-L-96-01 Audit of DOE's Implementation of Office of Management
           and Budget Circular A-131 Value Engineering, June 17,
           1996

CR-B-96-01 Audit of the Federal Energy Regulatory Commission
           Leased Warehouse Space, May 24, 1996
           Savings: $1,069,200

CR-L-96-06 Audit of the Department's Radiological Health
           Protection Program, April 4, 1996

CR-L-96-07 Audit of Benefits Paid to Terminated Contractor
           Employees Under the Civilian Radioactive Waste
           Management Program, August 1, 1996

CR-L-96-08 Review of the Department's Government Purchase Card
           Program, August 6, 1996

ER-B-96-01 Audit of Work Force Restructuring at the Fernald
           Environmental Management Project, April 23, 1996
           Savings: $15,800,000

ER-B-96-02 Audit of Groundwater Remediation Plans at the
           Savannah River Site,      June 11, 1996

ER-L-96-07 Audit of the Department of Energy's Distinctions
           Between Hazardous Waste and Mixed Waste, July 5, 1996
WR-B-96-06 Audit of Bonneville Power Administration's Management
           of Information Resources, April 2, 1996
           Questioned Costs: $109,000 Unsupported Costs: $182,000
           Savings: $803,000

WR-B-96-07 Subcontracting Practices at the Nevada Operations
           Office and Its Management and Operating Contractor,
           May 10, 1996

WR-B-96-08 Audit of the Management of the Cooperative Agreement
           with Texas to Fund the Amarillo National Resource
           Center for Plutonium, August 23, 1996

WR-L-96-04 Survey of Consolidated Management and Operating
           Contracts at the Nevada Operations Office, July 24,
           1996

WR-L-96-05 Audit of the Environmental Restoration of the 903
           Pad, Mound, and East Trenches at the Rocky Flats
           Environmental Technology Site, September 19, 1996


                     FINANCIAL AUDIT REPORTS

CR-FS-96-03Report on Matters Identified at the Strategic
           Petroleum Reserve During the Audit of the
           Departmentms Consolidated Statement of Financial
           Position as of September 30, 1995, April 15, 1996

ER-FS-96-03Report on Matters Identified at the Savannah River
           Operations Office During the Audit of the
           Departmentms Consolidated Statement of Financial
           Position as of September 30, 1995, May 17, 1996

ER-V-96-05 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Cost Claimed by and Reimbursed to MK-Ferguson of Oak
           Ridge Company Under Department of Energy Contract No.
           DE-AC05-91OR21900, April 15, 1996

ER-V-96-06 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to DynMcDermott
           Petroleum Operations Company Under Department of
           Energy Contract No. DE-AC96-93PO18000, April 23, 1996

ER-V-96-07 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Princeton Plasma
           Physics Laboratory Under Department of Energy
           Contract No. DE-AC02-76CH03073, May 17, 1996

ER-V-96-08 Assessment of   Changes to the Internal Control
           Structure and   Their Impact on the Allowability of
           Costs Claimed   by and Reimbursed to the West Valley
           Demonstration   Project Under Department of Energy
           Contract No. DE-AC07-81NE44139, June 3, 1996

ER-V-96-09 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Lockheed Martin
           Energy Systems, Inc., Under Department of Energy
           Contract No. DE-AC05-84OR21400, July 17, 1996

ER-V-96-10 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Argonne National
           Laboratory Under Department of Energy Contract No. W-
           31-109-ENG-38, August 7, 1996

ER-V-96-11 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Associated
           Universities, Inc., Brookhaven National Laboratory
           Under Department of Energy Contract No. DE-AC02-
           76CH00016, August 20, 1996

ER-V-96-12 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Westinghouse
           Savannah River Company Under Department of Energy
           Contract No. DE-AC09-89SR18035, September 25, 1996

ER-V-96-13 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Lockheed Martin
           Speciality Components, Inc., Under Department of
           Energy Contract No. DE-AC04-92AL73000, September 30,
           1996
           Questioned Costs: $58,130     Unsupported Costs:
           $446,750

WR-V-96-10 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Westinghouse
           Hanford Company Under Department of Energy Contract
           No. DE-AC06-87RL10930, May 3, 1996

WR-V-96-11 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to the Board of
           Trustees of the Leland Stanford Junior University
           Stanford Linear Accelerator Center Under Department
           of Energy Contract No. DE-AC03-76SF000515, June 3,
           1996

WR-V-96-12 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability   of
           Costs Claimed by and Reimbursed to Rocketdyne
           Division of Rockwell International Corporation   Energy
           Technology Engineering Center Under Department   of
           Energy Contract No. DE-AC03-76SF00700, June 4,   1996
WR-V-96-13 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Hanford
           Environmental Health Foundation Under Department of
           Energy Contract No. DE-AC06-90RL11711, June 12, 1996

WR-V-96-14 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Battelle-Pacific
           Northwest National Laboratory Under Department of
           Energy Contract No. DE-AC06-76RL01830, June 25, 1996

WR-V-96-15 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Fluor Daniel
           (NPOSR), Inc., Under the Department of Energy
           Contract No. DE-AC01-92FE62316, July 15, 1996
           Questioned Costs: $400

WR-V-96-16 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to EG&G Rocky Flats,
           Inc., Under Department of Energy Contract No. DE-AC34-
           90RF62349, July 24, 1996

WR-V-96-17 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to the Midwest
           Research Institute Under Department of Energy
           Contract No. DE-AC36-83CH10093, July 25, 1996
           Questioned Costs: $5,185

WR-V-96-18 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Los Alamos
           National Laboratory Under Department of Energy
           Contract No. W-7405-ENG-36, July 26, 1996
           Questioned Costs: $163,432

WR-V-96-19 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to the Regents of the
           University of California Lawrence Livermore National
           Laboratory Under Department of Energy Contract No. W-
           7405-ENG-48, July 30, 1996

WR-V-96-20 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Sandia Corporation
           Under Department of Energy Contract No. DE-AC04-
           94AL85000, August 5, 1996
           Questioned Costs: $24,400

WR-V-96-21 Assessment of   Changes to the Internal Control
           Structure and   Their Impact on the Allowability of
           Costs Claimed   by and Reimbursed to the Regents of the
           University of   California Lawrence Berkeley National
           Laboratory Under Department of Energy Contract No. DE-
           AC03-76SF00098, September 12, 1996

WR-V-96-22 Assessment of Changes to the Internal Control
           Structure and Their Impact on the Allowability of
           Costs Claimed by and Reimbursed to Bechtel Petroleum
           Operations, Inc., Under Department of Energy Contract
           No. DE-AC01-85SF60520, September 25, 1996
           Questioned Costs: $53,046

                        INSPECTION REPORTS

IG-0393    Inspection of the Establishment and Filling of the
           Department's Ombudsman Position, August 1, 1996

INS-L-96-05Inspection of Selected Practices for Replacement of
           Deteriorated Roofs at the Department of Energy's Y-12
           Plant, July 2, 1996



                             SECTION 4


                            STATISTICS


     This section lists audit reports issued before the beginning
of the semiannual reporting period for which no management
decisions have been made by the end of the reporting period, the
reasons management decisions have not been made, and the
estimated dates (where available) for achieving management
decisions. This section also presents audit statistics on
questioned costs, unsupported costs, and dollar value of
recommendations resulting from audit reports issued during this
reporting period. In addition, this section presents statistics
on inspection and investigative results achieved during this
semiannual reporting period.

                            DEFINITIONS

The following definitions, based on the Inspector General Act of
      1978, apply to terms used in this Semiannual Report.

Questioned Cost:   A cost which the Inspector General questions
because of:

      1.   An alleged violation of a provision of a law,
       regulation, contract, grant, cooperative agreement, or
       other agreement or document governing the expenditure of
       funds;

       2.   A finding that, at the time of an audit, such cost
       is not supported by adequate documentation; or

       3.   A finding that the expenditure of funds for the
       intended purpose is unnecessary or unreasonable.
Unsupported Cost: A cost which the Inspector General questions
because the Inspector General found that, at the time of an
audit, such cost is not supported by adequate documentation.

Disallowed Cost: A questioned cost which Department management,
in a management decision, has sustained or agreed should not be
charged to the Government.

Recommendation That Funds Be Put to Better Use ("Savings"): An
Inspector General recommendation that funds could be used more
efficiently if Department management took actions to implement
and complete the recommendations, including:

     1.   Reduction in outlays;

     2.   Deobligation of funds from programs or operations;

     3.   Withdrawal of interest subsidy costs on losses or
          loan guarantees, insurance or bonds;

     4.   Costs not incurred by implementing recommended
          improvements related to Department operations,
          contractors, or grantees;

     5.   Avoidance of unnecessary expenditures noted in
          preaward reviews of contract or grant agreements; or

     6.   Any other savings which are specifically identified.

Management Decision: The evaluation by Department management of
the findings and recommendations included in an audit report and
the issuance of a final decision by Department management
concerning its response to such findings and recommendations,
including actions concluded to be necessary.

Final Action: The completion of all actions that Department
management has concluded, in its management decision, are
necessary with respect to the findings and recommendations
included in an audit report. In the event that Department
management concludes no action is necessary, final action occurs
when a management decision has been made.

                     AUDIT REPORT STATISTICS

The following table shows the total number of operational and
financial audit reports, and the total dollar value of the
recommendations.

                          Total      One-Time    Recurring         Total
                          Number       Savings      Savings       Savings

Those issued before the
reporting period for
which no management
decision has been made:     9      $69,189,083   $29,164,000   $98,353,083
Those issued during the
reporting period:       45           $553,441,935      $855,360 $554,297,295

Those for which a
management decision was
made during the reporting
period:                 27           $592,197,648    $6,840,000 $599,037,648

Agreed to by management:             $22,421,785             $0 $22,421,785
Not Agreed to by management:        $252,529,771     $6,840,000 $259,369,771

Those for which a
management decision is
not required:             20               $0            $0            $0

Those for which no
management decision had
been made at the end of
the reporting period*:     7       $347,679,462     $23,179,360 $370,858,822

*NOTE: The figures for this item include sums for which
management decisions on the savings were deferred. Also, this
tabulation does not include $304,000,000 which is part of the
$620,000,000 reported in narratives on pages 11 and 25. The
$304,000,000 was discussed in report number IG-0314 and accounted
for in our October 1992 Semiannual Report; however, the
appropriate corrective action was not taken by management.

                     AUDIT REPORT STATISTICS

The following table shows the total number of contract and grant
audit reports, and the total dollar value of questioned costs and
unsupported costs.

                      Total            Questioned      Unsupported
                     Number                 Costs            Costs

Those issued before the
reporting period for
which no management
decision has been made:    21         $20,560,721         $110,948

Those issued during the
reporting period:              7         $388,065             $1,129

Those for which a
management decision was
made during the
reporting period:              7       $3,213,522               $707

Value of disallowed costs:               $187,412                 $0
Value of costs not disallowed:         $3,026,110               $707

Those for which a
management decision is
not required:                  3         $224,894                 $0
Those for which no
management decision had
been made at the end of
the reporting period:     18    $17,510,370          $111,370

               REPORTS LACKING MANAGEMENT DECISION

The following are audit reports issued before the beginning of
the reporting period for which no management decisions have been
made by the end of the reporting period, the reasons management
decisions have not been made, and the estimated dates (where
available) for achieving management decisions. These audit
reports are over 6 months old without a management decision.

The Contracting Officers have not yet made decisions on the
following contract reports for a variety of reasons. They
include delaying settlement of final costs questioned in audits
pending negotiation of indirect cost rates, awaiting review of
independent research and development costs, and litigation.
Also, tentative agreements on allowable costs have been reached,
but final vouchers indicating these agreements have not been
submitted by some contractors. The Department has a system in
place which tracks audit reports and management decisions. Its
purpose is to ensure that recommendations and corrective actions
indicated by audit agencies and agreed to by management are
indeed addressed and effected as efficiently and expeditiously as
possible.

WR-CC-90-32    Audit of Costs Claimed Under Contract No. DE-AC01-
               80RA32049 for the Operation Period From October 1,
               1984, Through April 30, 1985, and the Post
               Operation Period from August 1, 1985, Through
               November 30, 1987, Williams Brothers Engineering
               Company, Tulsa, Oklahoma, May 10, 1990

WR-C-92-01    Report on the Final Audit of Costs Incurred by
              EWA, Inc., Environmental and Water Resources
              Management, Minneapolis, Minnesota, Under Its
              Contract with the Yakima Indian Nation, United
              States Department of Energy Grant DE-FG06-
              83RL10545, for the period May 14, 1984, Through
              December 22, 1988, April 6, 1992

ER-CC-93-05   Report Based on the Application of Agreed-Upon
              Procedures With Respect to Temporary Living
              Allowance Costs Claimed Under Contract No. DE-AC09-
              88SR18035, October 1, 1987, to September 20, 1990,
              Bechtel National, Inc., San Francisco, California,
              and Bechtel Savannah River, Inc., North Augusta,
              South Carolina, May 3, 1993

CR-C-95-01    Report on the Interim Audit of Contract No. DE-
              AC35-89ER40486, Jan. 18, 1989, to September 30,
              1989, Universities Research Association, Inc.,
              Superconducting Super Collider Laboratory,
              Waxahachie, Texas, February 3, 1995
WR-C-95-01     Report on Independent Final Audit of Contract No.
               DE-AC34-91RF00025, July 26, 1990, to March 31,
               1993, Wackenhut Services, Inc., Golden, Colorado,
               March 13, 1995

ER-C-95-03     Report on the Interim Audit of Costs Incurred
               Under Contract No. DE-AC05-92OR21972 from
               September 1, 1992, to September 30, 1993, Fernald
               Environmental Restoration Management Corporation,
               Fernald, Ohio, May 11, 1995

ER-C-95-04     Interim Audit of Contract Number DE-AC05-
               84ER40150, October 1, 1991, Through September 30,
               1993, Southeastern Universities Research
               Association, Inc., Newport News, Virginia, June 6,
               1995

WR-C-95-05     Review of Los Alamos National Laboratory
               Disclosure Statement Adequacy and Cost Accounting
               Standards Compliance, June 2, 1995

ER-C-95-06     Audit of Final Indirect Cost Rates for Fiscal Year
               1988 Through 1992 Princeton University, Princeton,
               New Jersey, September 27, 1995

ER-C-96-01     Report on the Interim Audit of Costs Incurred
               Under Contract No. DE-AC05-92OR21972 From October
               1, 1993, to September 30, 1994, Fernald
               Environmental Restoration Management Corporation,
               Fernald, Ohio,   March 29, 1996

WR-C-96-01     Review of Mason & Hangar-Silas Mason Company,
               Inc., Cost Accounting Standards Compliance,
               October 30, 1995

WR-C-96-02     Audit of Costs Claimed Under Contract Numbers DE-
               AC02-85ER80276, DE-AC02-87ER80454, and DE-AC02-
               88ER80599, September 1985 Through December 1993,
               Scientific Systems International, Los Alamos, New
               Mexico, November 13, 1995

WR-C-96-03     Review of Lawrence Livermore National Laboratory
               Cost Accounting Standards Board Disclosure
               Statement Adequacy and Cost Accounting Standards
               Compliance, January 4, 1996

WR-C-96-04    Review of Lawrence Berkeley National Laboratory
              Cost Accounting Standards Board Disclosure
              Statement Adequacy and Cost Accounting Standards
              Compliance, January 8, 1996

Additional time was necessary to develop management decisions for
the following reports. Further explanations for the delays
follow each audit report.

AP-B-95-01    Audit of Management and Control of Information
              Resources at Sandia National Laboratories,
                 November 1, 1994 (The finalization of the
                 management decision on this report is awaiting
                 resolution of two outstanding issues. It is
                 estimated that these issues will be resolved by
                 November 30, 1996.)

IG-0373          Audit of Administration of Cooperative Research
                 and Development Agreements at DOE National
                 Laboratories, May 19, 1995 (The finalization of
                 the management decision on this report is awaiting
                 action by the recently designated organization
                 within the Department. It is estimated that the
                 action will be completed by November 30, 1996.)

WR-C-96-03       Review of Lawrence Livermore National Laboratory
                 Cost Accounting Standards Board Disclosure
                 Statement Adequacy and Cost Accounting Standards
                 Compliance, January 4, 1996 (The management
                 decision is awaiting the resolution of several
                 complex issues. It is estimated that these will
                 be resolved by December 31, 1996.)

WR-C-96-04       Review of Lawrence Berkeley National Laboratory
                 Cost Accounting Standards Board Disclosure
                 Statement Adequacy and Cost Accounting Standards
                 Compliance, January 8, 1996 (The management
                 decision is awaiting the resolution of several
                 complex issues. It is estimated that these will
                 be resolved by December 31, 1996.)

WR-V-96-02       Assessment of Changes to the Internal Control
                 Structure and Their Impact on Allowability of
                 Costs Claimed by and Reimbursed to Lawrence
                 Livermore National Laboratory Under Department of
                 Energy Contract No. W-7405, January 9, 1996 (The
                 finalization of the management decision on this
                 report is awaiting the review of the Departmentms
                 General Counsel. It is estimated that a
                 management decision will be reached by November
                 30, 1996.)

                      INVESTIGATIVE STATISTICS

    The investigative statistics below cover the period from
               April 1 through September 30, 1996

Investigations   open at the start of this reporting period: 284
Investigations   opened during this reporting period          94
Investigations   closed during this reporting period          93
Investigations   open at the end of this reporting period    285

Debarments/Suspensions                                         16
Investigations Referred to Management for
Recommended Positive Action                                   27
Complaints Referred to Management for Review and Followup      4
Administrative Disciplinary Actions Taken                    113
Investigations Referred for Prosecution*                          31
     Accepted                                                     16
     Declined                                                     27

     Indictments                                                   8
     Convictions                                                  20
     Pretrial Diversions                                           0

Fines, Settlements, and Recoveries**               $29,365,094

*Some of the investigations accepted or declined during this 6-
month period were referred for prosecution during a previous
reporting period.

**Some of the money collected was the result of Task Force
Investigations.



                       Hotline Statistics

Complaints Received via the Hotline                      189
Complaints Received via the General Accounting Office      2
Total Complaints Received                                191

Investigations Opened on Hotline Complaints                9
Complaints Resolved or Pending Resolution                116
Complaints That Required No Investigation by OIG          66
Total Complaints Disposition                             191

                      INSPECTION STATISTICS

      The inspection statistics below cover the period from
               April 1 through September 30, 1996


       Allegation-Based and Management System Inspections

Inspections open at the start of this reporting period   149
Inspections opened during this reporting period           13
Inspections closed during this reporting period           20
Inspections open at the end of this reporting period     142
Complaints referred to Department management/others      208
     Number of these referrals requesting a response
     for OIG evaluation                                      88
Reports issued*                                               7
Allegation-based inspections closed after
     preliminary review                                       8
Inspection recommendations
     Accepted this reporting period                          19
     Implemented this reporting period                       21
Personnel management actions taken as a result of
     inspections or complaints referred to management         4

*Reports include non-public reports such as administrative
allegation reports.
             Contractor Employee Protection Investigations

Complaints open at the start of this reporting period          75
Complaints opened during this reporting period                 22
Complaints closed during this reporting period                 32
     Complaints dismissed                              8
     Rprts of invest. & proposed decisions issued      6
     Allegation of Reprisal complaints settled        10
     Allegation of Reprisal complaints withdrawn       5
     Personnel security abuse reviews completed        3
Complaints open at the end of this reporting period            65



                            FEEDBACK SHEET



The contents of the October 1996 Semiannual Report to Congress
comply with the requirements of the Inspector General Act of
1978, as amended. However, there may be additional data which
could be included or changes in format which would be useful
to recipients of the Report. If you have suggestions for
making the report more responsive to your needs, please
complete this feedback sheet and return it to:

                        Department of Energy
                        Office of Inspector General (IG-13)
                        Washington, D.C. 20585

                        ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please        attach   additional
sheets if needed)




If you would like to discuss your suggestion with a staff
member of the Office of Inspector General or would like more
information, please call Wilma Slaughter at (202) 586-1924 or
contact her on the Internet at wilmatine.slaughter@hq.doe.gov.
